<html>
<title> - SAVING TAXPAYER DOLLARS BY REDUCING FEDERAL OFFICE SPACE COSTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     SAVING TAXPAYER DOLLARS BY REDUCING FEDERAL OFFICE SPACE COSTS

=======================================================================

                                 (114-36)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
                              ____________
                              
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE
98-875 PDF                  WASHINGTON : 2016                     
            
________________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c3d4cbe4c7d1d7d0ccc1c8d48ac7cbc98a">[email&#160;protected]</a>  
           
             
             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MARK MEADOWS, North Carolina             Columbia
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RYAN A. COSTELLO, Pennsylvania       DONNA F. EDWARDS, Maryland
BARBARA COMSTOCK, Virginia           DINA TITUS, Nevada
CARLOS CURBELO, Florida              PETER A. DeFAZIO, Oregon (Ex 
DAVID ROUZER, North Carolina             Officio)
BILL SHUSTER, Pennsylvania (Ex       VACANCY
    Officio)
                                
                                
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES
                                Panel 1

Hon. Steny H. Hoyer, a Representative in Congress from the State 
  of Maryland:

    Testimony....................................................     4
    Prepared statement...........................................    31

                                Panel 2

Hon. D. Brooks Smith, Chair, Committee on Space and Facilities, 
  Judicial Conference of the United States:

    Testimony....................................................     7
    Prepared statement...........................................    33
Norman Dong, Commissioner, Public Buildings Service, U.S. General 
  Services Administration:

    Testimony....................................................     7
    Prepared statement...........................................    45
    Responses to questions for the record from Hon. Barbara 
      Comstock, a Representative in Congress from the 
      Commonwealth of Virginia...................................    51
Richard L. Haley II, Assistant Director, Facilities and Finance 
  Division, Federal Bureau of Investigation:

    Testimony....................................................     7
    Prepared statement...........................................    57
    Responses to questions for the record from Hon. Barbara 
      Comstock, a Representative in Congress from the 
      Commonwealth of Virginia...................................    60
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

 
     SAVING TAXPAYER DOLLARS BY REDUCING FEDERAL OFFICE SPACE COSTS

                              ----------                              


                         TUESDAY, MARCH 1, 2016

                  House of Representatives,
              Subcommittee on Economic Development,
         Public Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing, offer testimony and ask questions.
    The purpose of today's hearing is to review major 
construction projects planned or proposed by the General 
Services Administration and examine GSA's use of its authority 
to carry out real estate transactions for the Federal 
Government.
    I want to welcome Representative Hoyer. I look forward to 
his testimony on the FBI [Federal Bureau of Investigation] 
Headquarters.
    There are two significant construction programs we will 
examine today: the construction of a new consolidated 
headquarters for the FBI, and the judiciary's courthouse 
construction program. These two programs alone total more than 
$3 billion.
    That is why I want to thank Judge Smith, Chair of the 
Committee on Space and Facilities for the Judicial Conference 
of the United States; Mr. Haley, CFO [chief financial officer] 
of the FBI; and Public Buildings Service Commissioner, Mr. 
Dong, for being here today.
    For fiscal year 2016, nearly $1 billion was appropriated 
for new courthouses. This committee has worked closely with the 
judiciary on improving its courthouse program. And, I want to 
thank the judiciary and the work of Judge Smith to reduce the 
costs to the taxpayer in courthouse projects.
    Steps the judiciary has taken include improving the 
evaluation process for new courthouses; adopting courtroom 
sharing policies; recommending less costly alternatives to new 
construction when appropriate; and reducing the judiciary's 
overall space footprint.
    Now we must continue to work together to ensure new 
courthouse projects stay on schedule and within budget. I look 
forward to hearing today from GSA and the judiciary on the 
strategies they will put into place to ensure we stay on track 
with these projects.
    The FBI Headquarters consolidation is another significant 
construction project. The new headquarters is proposed to 
include 2.1 million square feet of space. The project is 
intended to consolidate scattered FBI Headquarters functions 
into one location, reduce the FBI's footprint by 30 percent, 
and reduce the costs to the taxpayer.
    I have three major criteria with respect to the FBI 
project. First, the project needs to be a good deal for the 
taxpayer. Two, it needs to meet the FBI's security and 
financial requirements. And three, the process has to be fair 
for the three jurisdictions involved.
    In the fiscal year 2017 budget, the administration has 
requested a total of $1.4 billion, split between GSA and the 
FBI. This committee has also received a GSA prospectus to 
authorize a portion of the funding.
    As we review this proposal, there are many unanswered 
questions. For example, the prospectus does not include a total 
estimated project cost for the FBI Headquarters, something that 
is required by law to be included in GSA prospectuses.
    Understanding what the total cost is to the taxpayer will 
be important for Congress to effectively evaluate the proposal 
before us.
    GSA previously proposed constructing a new FBI Headquarters 
using its exchange authority. Members of this committee 
expressed concerns regarding the use of this authority to 
construct a $2 billion headquarters without any congressional 
authorization.
    Now GSA is proposing the project be funded with a 
combination of direct appropriations and the exchange of the 
Hoover Building.
    While we now have a prospectus for the FBI project because 
of the appropriations request, GSA has planned other major 
projects using its exchange authority for which no 
authorization has been sought. The committee has encouraged GSA 
to better utilize all of its authorities, particularly related 
to the public-private partnerships.
    However, we also expect there to be proper congressional 
oversight, particularly of projects with billion-dollar price 
tags. That is why we included in H.R. 4487, the Public 
Buildings Reform and Savings Act, a bill I introduced along 
with Ranking Member Carson, a number of provisions that would 
clarify and strengthen congressional oversight over these 
projects.
    Finally, there are a number of other topics I hope we can 
discuss today. Last November, for example, the U.S. Court of 
Federal Claims voided the lease award for the TSA 
[Transportation Security Administration] Headquarters. What is 
the current plan to get this project back on track?
    And how does GSA interpret the ruling as it relates to its 
authority to acquire properties?
    I hope we can get answers to these and other questions 
today. I look forward to hearing from our witnesses today.
    And thank you.
    I now call on the ranking member of the subcommittee, Mr. 
Carson, for his opening statement.
    Mr. Carson. Thank you, Chairman.
    Welcome to today's hearing. I am very pleased to have my 
good friend, Minority Whip Hoyer, as a witness testifying on 
behalf of his great constituents in Maryland.
    As the Federal Government's landlord, GSA has the 
responsibility to work with other Federal agencies to make 
decisions that will reflect both the will of the administration 
and Congress. This committee has worked diligently, to the 
chairman's remarks, with GSA and tenant agencies to identify 
opportunities to improve their space utilization.
    This can save taxpayer dollars, help agencies spend less on 
real estate, and improve their ability to provide their core 
services to those who need them.
    We have held roundtables across the Nation, and we have 
secured commitments from leaders of various agencies and 
secured the approval in many ways of people from the respective 
municipalities.
    I commend GSA for the efforts and fully expect them to 
continue their efforts. It is just as critically important in 
these times of fiscal cuts and austerity measures to use space 
efficiently as it is to ensure that existing building stock is 
properly maintained. Proactive maintenance and repair is almost 
always more cost efficient than reactive maintenance.
    This is why I am pleased to see that the administration has 
committed to over $2 billion in construction, repair, and 
maintenance projects in their fiscal year 2017 budget. These 
projects range from major repair jobs to the exchange 
contemplated by GSA to provide a new consolidated FBI 
Headquarters.
    Now, many of these projects represent Federal agencies 
significantly downsizing their current real estate footprint. 
There is a real opportunity to achieve long-term savings for 
taxpayers by effectively managing real estate.
    Included in the fiscal year 2017 request is $10.7 million 
for long overdue repair and alteration projects to undertake 
structural upgrades of the parking lot garage, for example, in 
my district, of the Minton-Capehart Federal Building, which 
will stimulate economic activity in Indianapolis.
    Finally, I look forward to hearing from the Administrative 
Office of the U.S. Courts. For many years this subcommittee has 
worked collaboratively with the Federal judiciary to better 
understand their space needs and to determine where savings can 
be found.
    The committee held multiple hearings, initiated several GAO 
[Government Accountability Office] reports, and ultimately 
requested a moratorium in 2010 on the administration 
constructing new courthouses.
    After much discussion, the Federal judiciary has committed 
to judges sharing courtrooms, a close adherence to the ``U.S. 
Courts Design Guide,'' and eliminating the use of judgeship 
projections in determining courthouse construction needs.
    As a result of the Federal judiciary adopting these reforms 
and adopting a new capital planning process developed in tandem 
with the subcommittee, Congress appropriated nearly $1 billion 
for new courthouses in fiscal year 2016, and today the chairman 
and I hope to hear from the Federal judiciary about how they 
plan to spend and prioritize their request for the 
authorization of funds appropriated in fiscal year 2016.
    Thank you, Chairman, and thank you, Whip Hoyer, and I look 
forward to hearing from the witnesses today.
    I yield back, Mr. Chairman.
    Mr. Barletta. Thank you, Ranking Member Carson.
    On our first panel today we have the Honorable Steny Hoyer. 
I ask unanimous consent that our witness' full statement be 
included for the record.
    Without objection, so ordered.
    Representative Hoyer, you are now recognized for 5 minutes.

TESTIMONY OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Hoyer. Chairman Barletta, thank you very much for 
giving me this opportunity to testify. I want to say how 
pleased I am to be here with your ranking member as well, Mr. 
Carson, my dear friend; Mr. Sires, and Ms. Frankel, and 
particularly, of course, Donna Edwards, my colleague from 
Maryland. She and I represent two of the three sites in Prince 
George's County that are being viewed and have been asked to be 
the subjects of proposal.
    Mr. Crawford, good to be here with you. Mrs. Comstock is 
not in the room right now, but it is good to be with her as 
well. I thank you for this opportunity.
    Also, you are going to be hearing from Mr. Haley.
    Let me say that my office has been working on this project 
for over 6 years. We believe it is one of the most important 
projects for Americans, not just for Maryland or Virginia, but 
for Americans generally to make more efficient and effective 
the agency on which we rely so heavily not only to keep us safe 
from those who commit crimes, but those who would terrorize our 
country from abroad.
    Mr. Haley will be testifying also.
    Lisa Jackson of Prince George's County is also here. Lisa, 
who works for our county executive in Prince George's County, 
is very strongly in favor of this, and as you know, Governor 
O'Malley already put up money for transportation around one of 
the sites so that we are looking forward to being very 
competitive on this.
    But the bottom line is the FBI needs a new facility. I 
appreciate this opportunity to testify about an issue of great 
consequence both to our homeland security and to growth and 
development in Maryland's Fifth Congressional District. The 
administration's fiscal year 2017 budget submission, as you 
pointed out, included requests for $1.4 billion.
    As you know, last year we put $390 million in the budget. 
So that is close to $1.8 billion. The balance is obviously 
contemplated by an in-kind transfer of the existing FBI 
Building, and of course, one of the questions is what would the 
valuation of that property be.
    A new FBI Headquarters will improve Bureau capabilities, 
reduce facilities cost, and ultimately reduce the amount of 
space, as you pointed out as well, Mr. Chairman, that the FBI 
Headquarters will need.
    As you are aware, the GSA is considering three locations to 
house the new FBI Headquarters, two of which are in Maryland's 
Prince George's County, as I say, represented by Donna Edwards 
and by myself.
    Consolidating the FBI Headquarters would offer the FBI an 
extraordinary set of advantages, as would selecting a site in 
Prince George's County. First, consolidating the FBI 
Headquarters would enhance the Bureau's effectiveness at 
responding to emergencies by improving communications between 
divisions and departments currently housed separately in 13 
separate facilities around the city.
    Currently, roughly half of the FBI Headquarters staff work 
out of leased space around the region in 13 additional 
locations as a result of insufficient space at the current J. 
Edgar Hoover Building.
    According to the Weapons of Mass Destruction Commission 
report in 2005, the FBI had difficulty sharing information even 
within its own organization before 9/11, a challenge that was 
exacerbated by not having a consolidated headquarters.
    We talk a lot about the synergy of coalescing divisions. I 
know I represent Pax River and the synergy of putting together 
both administration and research, development, test, and 
evaluation has paid off big dividends since we did that in the 
1990s.
    Consolidating the headquarters will contribute to efforts 
already underway to improve FBI emergency response, crisis 
management and terrorism prevention.
    Director Comey testified last week, and I quote, ``A key 
challenge inhibiting our ability to address these threats is 
the lack of a headquarters facility that fully fosters 
collaboration, intelligence sharing, and is dynamic, enabling 
special agents, intelligence analysts, and other professional 
staff to combat evolving threats as they arise.''
    He went on to say the building occupied by the FBI since 
1974, over 40 years ago, is obsolete, inefficient, and faces a 
number of security vulnerabilities, a very important issue in 
terms of required setbacks, Mr. Chairman, as you so well know.
    Now, Mr. Comey went on to say currently the facility only 
houses half of the headquarters workforce, requiring personnel 
to be disbursed in multiple locations within the National 
Capital region. He went on to say this makes it extremely 
difficult to adapt to rapidly developing threats and 
collaborate across divisions and programs.
    Secondly, Mr. Chairman and members of the committee, Prince 
George's County offers the FBI's workforce a range of 
convenient and efficient transportation options for access to 
area airports. We have the Baltimore-Washington International 
Airport, National and Dulles, but just as importantly, Andrews 
Air Force Base is some 20 minutes away in terms of foreign 
deployment of Air Force aircraft; Metro, Amtrak and major 
highways next to one of the sites that is being considered and 
1 mile from another site that is being considered.
    Twenty-five percent of the region's Federal workforce 
currently lives in Prince George's County, and Maryland is 
already home to many of the FBI employees.
    Third, the sites being considered in Prince George's County 
offer close proximity to some of our Nation's most important 
national security and cybersecurity agencies as well, as world-
class research institutions.
    Director Comey has identified cybersecurity as one of the 
FBI's priorities, and Maryland is home to the U.S. Cyber 
Command at Fort Meade, the National Security Agency, the 
Defense Information Systems Agency, the National Cybersecurity 
Center of Excellence Headquarters at the National Institute of 
Standards and Technology, the University of Maryland University 
College's cybersecurity program, which is approximately 2\1/2\ 
miles from this site, and the Department of Defense's Cyber 
Crime Center, DC3, as they call it.
    Prince George's County is also home to private-sector 
companies and contractors in the cybersecurity field.
    Fourth, according to a 2011 report, Mr. Chairman, by the 
FBI, consolidating the headquarters would save taxpayers at 
least $44 million per year due to the elimination of 
inefficiencies from housing its divisions in multiple 
locations.
    Consolidating the FBI, Mr. Chairman, is one of the most 
important homeland security initiatives in years, and selecting 
a site in Prince George's County will best achieve--in my view 
and in the view of our Governor, Larry Hogan, a Republican 
Governor--the goals of such consolidation. This is a bipartisan 
effort in our State, and we are dedicating resources and the 
Governor has money in his budget this year to facilitate the 
selection of one of these sites.
    Mr. Chairman, I thank the committee for this opportunity to 
share my views, and I hope Members will fully support the GSA's 
efforts with regard to the FBI consolidation.
    I might add, Mr. Chairman, just for your consideration I 
have been a strong proponent of building this building on a 
lease-to-own basis because I thought (a) that was from a fiscal 
standpoint an easier way to get from where we are to where we 
want to be.
    The administration and GSA have chosen not to go that 
route, but I would hope the committee would keep that in mind 
as an option. I thank you, Mr. Chairman. I would be glad to 
answer any questions.
    Mr. Curbelo, good to see you, sir.
    Mr. Barletta. Thank you for your testimony, Representative 
Hoyer.
    It has been our policy that we will refrain from any 
questions because we know you have a busy schedule, and I want 
to thank you for your being here today.
    The lease-to-own idea you talked about is actually in our 
bill, something that we also feel is a tool that we should use, 
and I think we all agree that the case for a new headquarters 
is perfectly clear.
    Our challenge is to make sure that it will be built in a 
cost-effective manner to better serve our country. As you said, 
this is a national issue very important to our country. Your 
testimony will help inform the subcommittee as we review this 
important project.
    Mr. Hoyer. Thank you, Mr. Chairman and Members.
    Mr. Barletta. Thank you for being here.
    Mr. Hoyer. Thank you, Mr. Carson.
    Mr. Barletta. For our second panel today, we will have the 
Honorable D. Brooks Smith, Chair, Committee on Space and 
Facilities, Judicial Conference of the United States.
    Mr. Norman Dong, Commissioner, Public Buildings Services, 
General Services Administration.
    And Mr. Richard L. Haley II, Assistant Director, Facilities 
and Finance Division of the Federal Bureau of Investigation.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    Each of you is now recognized for 5 minutes, and, Judge 
Smith, if you are ready, you may proceed.

 TESTIMONY OF HON. D. BROOKS SMITH, CHAIR, COMMITTEE ON SPACE 
   AND FACILITIES, JUDICIAL CONFERENCE OF THE UNITED STATES; 
   NORMAN DONG, COMMISSIONER, PUBLIC BUILDINGS SERVICE, U.S. 
   GENERAL SERVICES ADMINISTRATION; AND RICHARD L. HALEY II, 
 ASSISTANT DIRECTOR, FACILITIES AND FINANCE DIVISION, FEDERAL 
                    BUREAU OF INVESTIGATION

    Judge Smith. Chairman Barletta, Ranking Member Carson, and 
members of the subcommittee, I am D. Brooks Smith, a judge of 
the U.S. Court of Appeals for the Third Circuit, and I Chair 
the Judicial Conference Committee on Space and Facilities. 
Thank you for the invitation to testify.
    As this subcommittee pursues the topic of saving taxpayer 
dollars by reducing Federal office space costs, I can assure 
all of you that the Federal judiciary has been actively engaged 
in accomplishing that very objective.
    As the third branch performs its paramount constitutional 
duties, we are focused on being good stewards of the resources 
Congress has provided, while also meeting the needs of the 
public and ensuring that security and safety concerns are met.
    To this end, the judiciary has implemented a number of 
plans, policies and procedures which shape the way we think 
about how to plan and use space. While my written testimony 
provides greater detail on these topics, I want to use the time 
you have generously provided me to briefly discuss three 
points.
    First, the Federal judiciary has adopted a number of 
initiatives to manage the space it currently occupies.
    Second, we have reformed our courthouse construction 
program to ensure that as we plan for future space requirements 
each project will satisfy the housing needs of the particular 
court in the most cost-efficient manner possible.
    Third, the judiciary in cooperation with the General 
Services Administration is mindful of its stewardship 
responsibility. The courts are committed to managing our 
resources in a responsible manner and spending appropriated 
funds in the most cost-effective way we can.
    First, the Federal judiciary currently uses a number of 
tools to manage existing space, including our space reduction 
program, circuitwide policies to assure no net new space 
growth, the integrated workplace initiative and courtroom 
sharing policies. The space reduction program alone has already 
generated an annual cost avoidance of $11.8 million, as we have 
released nearly one-half million usable square feet back to 
GSA. We are on track for additional space reductions, which 
will accomplish further savings.
    Second, over the past 10 years, the Judicial Conference has 
made a number of changes to its courthouse construction program 
in an effort to reduce costs, increase efficiencies and 
prioritize requirements on the basis of urgency of need. Many 
of those changes were in response to GAO recommendations and 
guidance from Congress, specifically from this subcommittee and 
the full Committee on Transportation and Infrastructure.
    Reforms the third branch has undertaken in regard to our 
courthouse construction program include adoption of the asset 
management planning process, known as AMP; reprioritization of 
all construction projects according to the results of the AMP 
process; and modification of the old 5-year plan now designated 
the Federal judiciary Courthouse Project Priorities plan, CPP.
    With these reforms, the Judicial Conference is now able to 
submit a planning document to Congress that provides a 
combination of both flexibility and reasonable predictability.
    Third, while we are carefully managing our existing space 
and prudently planning our future requirements, the judiciary 
is working closely with GSA to manage funded construction 
projects in an efficient and fiscally responsible manner.
    Recognizing that there are courts that for too long have 
been housed in aging facilities with serious space, security, 
and operational deficiencies, Congress provided $948 million 
for courthouse construction. After congressional authorization 
this money will fully fund the top eight projects on the CPP 
and partially fund the ninth project on the plan. GSA and the 
AO [Administrative Office of the U.S. Courts] are preparing the 
spending plan which must be submitted to the Appropriations 
Committees by mid-April 2016.
    Because the spend plan is still under development, I am not 
yet able to comment with specificity on the contents of that 
plan, but I can describe some of the actions we are taking.
    That effort includes implementing a portfolio management 
strategy; refreshing program requirements; reviewing design 
guide exceptions; developing plans and coordinating actions 
necessary for the successful execution of the courthouse 
projects funded in the fiscal year 2016 Appropriations Act.
    I have personally emphasized to each court that each 
project should stay at or below its budget planning number.
    We in the third branch are appreciative of the commitment 
Congress has made to the courthouse construction program. We 
look forward to working with this subcommittee and the full 
committee as the projects come to you for authorization.
    We are also well aware of the concerns raised over past 
construction efforts. We have responded to those concerns and 
will continue to do so. The judiciary is committed to managing 
our current space, to planning for future space in a 
responsible and economical manner, and to exercising good 
stewardship over our resources consistent with our 
constitutionally mandated duties to deliver justice.
    Thank you very much, Mr. Chairman, Mr. Ranking Member.
    Mr. Barletta. Thank you for your testimony, Judge Smith.
    Commissioner Dong, welcome, and you may proceed.
    Mr. Dong. Good morning, Chairman Barletta, Ranking Member 
Carson, and members of this committee. My name is Norman Dong, 
and I am the Commissioner of the Public Buildings Service at 
GSA. Thank you for inviting me to testify this morning.
    There is a simple way of thinking about our work at GSA. We 
support our Federal tenants in meeting their space 
requirements, but we must do so in the most fiscally 
responsible way. That means balancing our commitment to our 
tenants with our commitment to the taxpayer, and our mandate is 
to help our Federal tenants spend less on rent so they can 
devote more of their limited resources on agency mission.
    At GSA, we are focusing on four key priorities:
    First, reducing the Federal footprint;
    Second, promoting greater competition in our leasing 
activity;
    Third, disposing of underutilized properties far more 
aggressively than we have in the past; and
    Four, delivering capital projects to consolidate agencies 
into federally owned facilities.
    In recent years, GSA has supported the governmentwide 
effort to reduce the Federal footprint. Since 2012, the 
inventory of office and warehouse space has declined by nearly 
25 million square feet. As leases expire in the coming years, 
we see even more opportunity for agencies to co-locate, 
consolidate and reduce their rent spending.
    The consolidation activities program is an important part 
of our effort to improve agency space utilization. The funding 
that Congress has provided over the past 2 years will reduce 
the Federal footprint by more than 1 million square feet and 
save taxpayers more than $76 million in lease cost savings each 
year.
    As we consider the size of the Federal footprint, we also 
must consider the cost of this footprint, and that is why our 
approach to leasing is so important. While we emphasize the 
importance of federally owned space, we will continue to see a 
significant amount of leased activity in our portfolio. 
Therefore, we need to get the most competitive lease rates for 
our tenants and for the taxpayer.
    In previous hearings, we discussed how GSA is promoting 
greater competition in our leasing process. To do this we are 
starting our planning work much earlier in the process. We are 
broadening delineated areas, and when it makes sense to do so, 
we are promoting longer lease terms in order to get lower 
rates.
    GSA has been working with each of our regional offices to 
examine the pipeline of expiring leases to secure agency space 
requirements and to promote greater competition for those 
follow-on transactions. As a result of this improved long-term 
planning, your committee will be receiving more lease 
prospectuses earlier on in the process as GSA works to avoid 
costly holdovers and extensions.
    We are also doing more to get rid of our underutilized 
assets and for good reason. We face significant operating costs 
in maintaining properties that we no longer need, and these 
underutilized buildings have a significant backlog of unmet 
maintenance and repair needs which we will never be able to 
afford in this current budget environment.
    Finally, we see significant opportunity to tap into the 
value of our underutilized assets that no longer have utility 
to the Federal Government, but reflect far more value to the 
private sector.
    Our efforts are making a difference. Over the past 2 years, 
GSA has disposed of more than 500 assets, which has generated 
close to $100 million in sales proceeds. But there is more that 
needs to be done. That is why for the first time GSA has 
developed a multiyear pipeline that provides greater 
transparency and accountability for us to get rid of those 
assets that we have identified for potential disposal, exchange 
or out-lease.
    Finally, I want to discuss how we are delivering capital 
projects to consolidate agencies into federally owned 
facilities. There are significant economic benefits of moving 
out of expensive leases and consolidating into federally owned 
buildings.
    In addition, co-locating agency components also enhances 
mission effectiveness through increased collaboration and 
coordination.
    We appreciate the support that this committee has provided 
in our efforts to develop federally owned headquarters 
facilities for our major tenants. One major example is the 
consolidation of DHS [Department of Homeland Security] at the 
St. Elizabeths campus. The St. Elizabeths project will 
consolidate millions of square feet of space that we are 
currently leasing into one federally owned campus.
    The consolidation at St. Elizabeths will also enhance DHS 
mission effectiveness while redeveloping an underutilized asset 
that is already in our portfolio. And I am pleased to report 
that we are on track with this project.
    GSA has also committed to delivering a new headquarters 
facility for the FBI. This new facility will consolidate FBI 
employees from 13 different locations across the National 
Capital region to a modern and secure facility that enhances 
FBI's national security, intelligence, and law enforcement 
missions and saves millions of dollars in leasing costs each 
year.
    Thank you for providing me the opportunity to speak with 
you on our progress at GSA. I look forward to working with this 
committee to improve how we manage real property in the Federal 
Government.
    Mr. Barletta. Thank you for your testimony, Commissioner 
Dong.
    Mr. Haley, thank you for being here, and you may proceed.
    Mr. Haley. Chairman Barletta, Ranking Member Carson, 
committee and I also want to thank your staff. They have been 
terrific in asking questions and dealing with this.
    On behalf of Director Comey, the FBI family, thank you for 
letting us be part of this hearing to talk about what is 
obviously a huge endeavor and opportunity.
    I also want to thank you first though beyond headquarters 
and what that iconic symbol is and operational. There are 400 
or so locations across the country, many of those in your 
jurisdictions, and that is the tip of the spear for us, those 
field offices and resident agencies where the work gets done.
    And really just to take a short period of time to talk 
about two aspects of that, and one is the operational aspect in 
that coordination and collaboration, what has, since 9/11, both 
for the field and headquarters, changed the way the FBI has 
done things.
    The Director talked about that with our Appropriations 
Committee where we came just last week, being a reactive 
organization with not much IT or technology to an organization 
today where we have over 6,000 State and local task force 
members. We have foreign law enforcement intelligence 
organizations working in our facilities, and that technology 
and how that works, if a building is at its best, it is 
invisible to that operational user. Unfortunately, especially 
at headquarters, our building is not invisible to the users and 
to the agents and intelligence analysts and professional staff, 
and has a lot of problems in terms of us being able to just get 
collaboration there.
    It was a police precinct when it was built, a national 
police precinct, poured concrete for efficiency and cost at the 
time. That same efficiency that was built back in the 1960s and 
1970s is today inhibiting where we can actually make the 
appropriate space, run wiring and cabling throughout the 
building. Projects take way too long.
    We can talk about obviously the footprint. We are looking 
at over 800,000 square feet, being able to reduce in our 
headquarters facility with this consolidation. That has 
obviously, as mentioned before, a lot of cost savings.
    The security footprint is obviously another area with the 
setbacks at that downtown location compared to our other 
intelligence partners, but it is really that operational piece 
that I think is most important to us.
    The other piece that I think the Director would want us to 
mention is that aspect of full consolidation, that this project 
in any way it is done and wherever it is located, being able to 
consolidate all of those pieces. The organization historically, 
cases were done in the field. Headquarters are more of an 
administrative burden to the field.
    Today, which started in our counterterrorism side but has 
expanded across all of our national security cases, as well as 
our criminal and cyber cases, is that national global 
coordination center over all of those things that are happening 
in the field. The Director has mentioned before that Bonnie and 
Clyde may have robbed on a good day two or three banks in one 
small area. You now have cyberhackers and attacks going on 
where $80 million, $90 million can be stolen from all across 
the country, and how that coordination occurs has a lot to do 
with how we bring those different skill sets and those 
different capabilities together, and that right now is an 
inhibitor for us.
    So I look forward to answering you questions today, and on 
that good deal and meets security at least on the first two you 
mentioned earlier, good deal and meets security and financial 
piece, as CFO and steward for all of our facilities and 
logistics, I agree with you. Whatever happens in this project, 
however it is funded, it needs to meet that, and the Director 
would want me to convey to you that he believes strongly in 
that as well.
    Mr. Barletta. Thank you for your testimony, Mr. Haley, and 
I would like to thank all of you for your statements.
    I will now begin the first round of questions, limited to 5 
minutes for each Member. If there are any additional questions 
following the first round, we will have additional rounds of 
questions as needed.
    Before I begin the first round of questions, I want to 
recognize Judge Smith for your hard work to bring some much 
needed reforms to the courthouse program. I know it has not 
been easy, and I appreciate how much progress that you have 
made. And I do hope that the next Chair will continue your good 
work.
    Judge Smith. Thank you. That is very kind of you, Mr. 
Chairman. I appreciate that, and I am looking forward to there 
being a new Chair. Thank you.
    [Laughter.]
    Mr. Barletta. Mr. Dong and Judge Smith, you have a limited 
amount of funds, and there are a lot of projects on the 5-year 
plan, and we want to fund as many of them as possible. That 
means every new courthouse project must be planned, designed 
and managed in a way to ensure that they are on schedule and 
under budget.
    What steps are you taking to ensure that this happens?
    Who wants to start? Either one.
    Judge Smith. Mr. Chairman, what we have undertaken is a 
very collaborative effort from the start in the wake of the 
appropriations bill. We, of course, have been very grateful to 
have now $948 million for purposes of building new courthouses 
and/or annexes to existing courthouses.
    But we recognized at the outset that what we had to do was 
to undertake steps to assure that we, as responsibly as is 
humanly possible and as efficiently as we could, spend that 
money to see that facilities were provided for the judiciary 
that allowed us to do the job that we could do.
    The collaborative effort I have referred to has involved 
the entire court family and all those who have courts and 
venues that will eventually have new courthouse construction.
    I, at the end of January, convened a phone call of all the 
constituents involved and made sure that I reached out to them 
and emphasized the need to stay within costs. These are 
projects that have been waiting for a long time, many of them, 
and not all of the data is up to date. It needs to be 
refreshed. We are in that process now.
    But the word has gone out, and we have engaged not only the 
court but our friends at GSA as well who have worked with us in 
numerous meetings since then and in phone conferences, and I 
know that Commissioner Dong can speak to that level of 
cooperation as well.
    Mr. Dong. Chairman Barletta, I am extremely pleased with 
the strength of the partnership and the quality of the 
collaboration that we have seen between GSA and the courts, and 
our objective is the same, and that is to maximize the impact 
of the funds that have been appropriated for the courthouse 
program.
    Every day we are coming together to work through specific 
issues at specific courthouses, and we are really seeing some 
terrific progress here, but I think it really comes back to 
that commitment to collaboration to make sure that we are able 
to deliver on the program for these courthouses.
    Mr. Barletta. As you know, the Harrisburg Courthouse is 
number 9 on the list. There is funding currently available for 
eight and partially some for nine. You know, I want to make 
sure that we stay on or under budget so that the partial 
funding for the Harrisburg Courthouse remains there and does 
not get used up on the top eight and the Harrisburg Courthouse 
would fall further back.
    Judge Smith. We are certainly keeping an eye with a view 
toward Harrisburg. As you know, Mr. Chairman, Harrisburg is 
almost in my backyard. I am very familiar with the existing 
courthouse. I am very familiar with the court, and I have seen 
the court numerous times.
    I am in conversations with the chief judge, Chief Judge 
Connor of that district, and we are taking every step possible 
to make sure that there are sufficient monies after one through 
eight on the construction list to address at least the 
beginning of the courthouse project in Harrisburg.
    Mr. Barletta. Thank you.
    Mr. Dong, currently we only have one prospectus for a 
courthouse on the judiciary's 5-year plan. When can we expect 
the others, including the prospectus for the Harrisburg 
Courthouse?
    Mr. Dong. We were talking about the terrific planning work 
that we see between the courts and GSA, and right now we are 
going through courthouse by courthouse to make sure that we 
have got detailed program requirements that will meet the space 
needs for each project.
    And as we complete those requirements, we will be 
submitting prospectuses to the Congress.
    Mr. Barletta. Thank you.
    The Chair now recognizes Ranking Member Carson for his 
questions.
    Mr. Carson. Thank you, Chairman.
    Mr. Haley, as the FBI continues to move forward with this 
consolidation, have you considered your ability to retain 
employees if you leave the center of the region?
    Mr. Haley. Thank you, sir.
    We have. Obviously at the core of this project is the human 
capital. That is what we are about, 36,000 people within the 
FBI. This building right now, the Hoover Building, holds about 
5,500 of our downtown personnel and the rest of them are 
scattered.
    We have looked at it in two ways. One is depending on where 
the site gets located, how that affects current employees from 
an agent's standpoint, agents tend for the most part to move 
around. So as the project gets identified and moves closer to 
completion, we believe that the agent population will migrate 
to wherever that location is.
    It is more in terms of the current population of that 
professional staff which is rooted in communities around the 
area. We have looked at the transportation routes. We have 
looked at the quality of everything from schools to all of 
that.
    So it is something we are very much involved in, and we 
have workforce planning. We have two initiatives right now, one 
looking at workforce planning and the other one looking at how 
the future FBI employees will operate, what type of space, what 
type of interaction will they do. So all of that is being 
looked at.
    We think that for all three sites we are obviously agnostic 
to which site. We are the tenants of GSA, and they get to make 
that decision ultimately, but we believe all three sites can 
meet that requirement going forward. But it will be something 
we will have to work at. It is not something that is just going 
to naturally get us there.
    I will say one other thing on the recruiting piece. One of 
the things that we are seeing more and more in terms of the new 
generation of employees, when they come to work we are somewhat 
stifled by all of the TV shows and movies on the FBI and what 
is expected of an organization that has national law 
enforcement and domestic intelligence responsibilities. When 
they get there it is an understatement to say they are somewhat 
underwhelmed by what they are getting.
    So from that standpoint, we think that a headquarters 
operation that meets our operational requirements will help 
facilitate that recruitment effort in the future.
    Mr. Carson. We have not even covered the reconstruction of 
Quantico, but that is another subject.
    Judge, how does the judiciary plan to proceed with adding 
more projects to the capital courthouse projects priority plan?
    And does GSA in your mind have enough feasibility plans in 
the pipeline so that the courts can effectively put together a 
new capital priorities plan in the near future?
    Judge Smith. First of all, the projects that are currently 
on the list have all undergone feasibility studies and must 
undergo a feasibility study before they are able to be placed 
on the list. So we are prepared in that regard to deal with 
those eight projects that have been generally referenced here 
today.
    What we must do and where the real work is being done right 
now both by the courts and the Administrative Office and 
Commissioner Dong's people, are to refresh the programming 
requirements for each of those eight as well as the Harrisburg 
project, and that is consuming a considerable amount of our 
time right now.
    But I am very pleased with the progress that has been made. 
I have been very pleased with the attitude that has been 
demonstrated by our court family, and the relationship that has 
developed between the Public Buildings Service and the courts 
in recent years has allowed us to really negotiate our way 
through some old data in an effort to get ourselves into a 
position where we can, first of all, develop a spend plan, 
which we must have completed by mid-April, and then be able to 
submit to the Congress and with GSA developing the necessary 
prospectuses that each project will require.
    Mr. Carson. Yes, sir. Commissioner Dong, lastly, is it 
possible to even build a new FBI Headquarters without 
exchanging the current FBI Headquarters?
    And would redeveloping the Pennsylvania Avenue site into a 
new Federal complex make financial sense for GSA?
    Mr. Dong. We think the exchange is an important part of the 
process of delivering a new headquarters facility for the FBI 
because it really allows us to tap into the value of the Hoover 
Building.
    We see significant development interests on that site, and 
it is an important element of our larger funding strategy and 
our larger commitment to developing a new consolidated 
headquarters facility for that agency.
    Mr. Carson. Yes, sir. Thank you.
    I yield back, Mr. Chairman.
    Mr. Barletta. The Chair now recognizes Representative 
Crawford for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    I thank you, gentlemen, for being here today.
    Mr. Haley, real quickly, how much do you think you have 
saved? What is the estimate on saving construction costs when 
the consolidated headquarters is built?
    Mr. Haley. Sir, are you talking about the actual building 
or what we are saving right now in terms of rents and that?
    Mr. Crawford. What is a new consolidated headquarters?
    Mr. Haley. The part that I can talk to is the 13 lease 
sites around the Washington, DC, area plus the Hoover Building.
    We are spending about $130 million in lease costs and 
utilities today, and that does not even count the fact that 
each one of those facilities requires security. They each have 
their own IT apparatuses in those facilities.
    So as we look at those costs and consider the options of 
that all being on a campus where we are not securing multiple 
facilities, we are not paying rent, we are not paying for air 
conditioning and utilities on off-hours that we are having to 
do across these different locations, we think it is 
considerable.
    Since the 2011 study that was cited previously, that number 
I think was mentioned at about $40 million. We have not done an 
updated study until we get closer to kind of seeing where the 
final location will be, and that is kind of in GSA's lane, but 
we do know it will be tens of millions of dollars. I think 
there is another----
    Mr. Crawford. You are going to save tens of millions of 
dollars with this consolidation?
    Mr. Haley. On an annual basis.
    Mr. Crawford. Let me ask you this just while the time is 
clicking here. During our last hearing, the FBI testified the 
need was for 1.9 million square feet for the headquarters. 
Today the request is 2.1 million square feet. Why the change?
    Mr. Haley. The number has not changed. The current 
footprint is about 2.9 million square feet. That 2.1 million 
square feet, I think, is the gross square footage. I think the 
actual space that people would occupy is the 1.9 million square 
feet.
    Those two numbers get kind of bantered back and forth. It 
is about 2 million square feet. It is about 1 million square 
feet less than we have today.
    Mr. Crawford. OK. Mr. Dong, as new Federal courthouses are 
built, what is GSA doing to ensure that vacant courthouses are 
reused, sold, or otherwise redeveloped in a timely manner?
    Mr. Dong. It comes back to what we were talking about 
before in terms of looking at our portfolio, including our 
vacant courthouses and being much more aggressive in terms of 
identifying opportunities to either dispose of those 
courthouses or exchange those courthouses or look for out-lease 
opportunities.
    And we recognize that we cannot afford to keep these 
properties on the books. So we are moving far more aggressively 
than we have in the past.
    Mr. Crawford. Let me go back to Mr. Haley. I understand 
that the funds requested for the FBI are intended to be out of 
GSA's funds to complete the basic construction of what is 
called a ``warm lit shell,'' but additional funds will be 
needed for FBI's buildout.
    Is that correct? And how much would the FBI's buildout 
costs be and where would the funds come from?
    Mr. Haley. Yes, sir. So the resources that have been 
identified that were appropriated in 2016 and that are in the 
President's budget for 2017 are for the overall building cost. 
Those have been split between GSA and the FBI.
    In addition to that, like any of our field offices or 
resident agencies, the headquarters building, those above 
standard costs would be an additional amount that we would be 
working with our appropriators and OMB [Office of Management 
and Budget] to identify.
    Some of those we have made a commitment because of the 
importance of this project that we would be identifying those 
within our own resources. That is things like information 
technology, above standard security requirements, furniture and 
that type of stuff.
    Mr. Crawford. I yield back.
    Mr. Barletta. The Chair recognizes Ms. Frankel for 5 
minutes.
    Ms. Frankel. Thank you, Mr. Chairman, and I thank you and 
the ranking member for accommodating my request to sit in today 
and thank the witnesses for being here and for your service.
    I specifically wanted to come here today because I 
represent the south Florida area that is served by the United 
States District Court for the Southern District of Florida, and 
I am assuming that some of you are familiar with that 
situation.
    The district is one of the largest Federal judicial 
districts in the country. It spreads across 15,000 square 
miles, reaching from Vero Beach in the north to Key West in the 
south, its jurisdiction over Federal civil and criminal issues 
arising in south Florida, serving 6.3 million people from nine 
counties. In 2013, 8,000 civil cases were filed, making it one 
of the busiest jurisdictions in the country.
    Its central courthouse and the only one in Broward County 
is located in Fort Lauderdale, and that is the one I want to 
talk about.
    It was built 40 years ago, obviously before 9/11, and so it 
has quite a few security issues. It also has the plague of 
south Florida mold, roof leaks, flooding and so forth.
    In 2015, the Judicial Conference of the United States, 
which I am sure Judge Smith knows, named Fort Lauderdale 
Federal Courthouse as most in need of replacement in the 
country and urged a feasibility report.
    Our committee, the Committee on Transportation and 
Infrastructure, did pass a resolution, and we asked that we 
receive a feasibility report by September, but we have not 
received it yet.
    We have a preliminary. We do not have the final. I am just 
wondering where it is.
    Mr. Dong. GSA is committed to addressing the space needs of 
the courts in Fort Lauderdale. As part of our process over the 
past few months we have actually conducted a detailed 
feasibility study to get a more detailed estimate of the cost 
associated with various options.
    We have finished up that process, and we will be submitting 
the 11(b) report to the Hill in the coming weeks.
    Ms. Frankel. OK. Thank you.
    If I could maybe ask both of you, I do not know what your 
report is going to say, but just for these purposes, I assume 
it will have a conclusion similar to the preliminary which was 
a recommendation of a new facility, but let's say that is the 
recommendation, not to put words in your mouth.
    Where would Fort Lauderdale then be in the priority of this 
process? How many more courthouses are out there that need to 
be funded? Could you give me an idea?
    Judge Smith. Congresswoman Frankel, first of all, let me 
ascribe to everything that you have said relative to the 
current condition of the courthouse in Fort Lauderdale. Our 
committee actually visited there a number of years ago when we 
held a meeting nearby, and I personally visited the courthouse 
just a year ago and walked through it to observe its continuing 
deterioration. Fort Lauderdale needs a new courthouse.
    And as Commissioner Dong has indicated, the full-scale 
feasibility study should be completed sometime in the near 
future, at which point it will come to the attention of the 
Space and Facilities Committee.
    We will need to assess that specific project based not only 
on the feasibility study but our AMP process, which requires us 
to take into account the urgency evaluation that Fort 
Lauderdale receives as part of that very objective process.
    As Chair, as a member of the committee, I cannot, of 
course, commit to what the committee will do, but I can assure 
you that the committee is well aware of the need, will receive 
the feasibility study, will look very seriously and discuss how 
we should place and rank Fort Lauderdale.
    Because our CPP process that I referred to in my statement 
is new, it has only been in effect since last September's 
approval by the Judicial Conference, we have yet to deal with 
the addition of anything new on our list, but I can assure you 
it will receive very serious attention at our June meeting.
    Ms. Frankel. Do all the courthouses that have been 
recommended or that are on your plan but have not yet been 
funded, will they be ahead of Fort Lauderdale or does Fort 
Lauderdale if they get a feasibility study that recommends a 
courthouse, will they all be considered equally?
    Judge Smith. Under the former 5-year plan, a new courthouse 
that is a venue that had received a feasibility study would 
have been placed at the bottom in the queue. That, however, is 
not required under the new process.
    Because we have not yet had to add and because the 
committee has yet to develop a specific policy or protocol, I 
cannot tell you how that will be resolved, but one of the 
reasons we adopted the new plan was so that we were not fixed 
with the previous process of simply adding someone to a new 
list.
    We will be studying all alternatives, but I want to make it 
very clear the seriousness with which we regard Fort 
Lauderdale. I have seen the leaks. I have smelled the mold.
    Ms. Frankel. Yes.
    Judge Smith. I have seen the hurricane damage. You need a 
new courthouse.
    Ms. Frankel. Thank you, sir. Thank you.
    I yield back.
    Mr. Barletta. The Chair recognizes Mrs. Comstock for 5 
minutes.
    Mrs. Comstock. Thank you, Mr. Chairman.
    And I know we had my colleague Mr. Hoyer here earlier. 
Being from Virginia, obviously I have a little different view 
on the FBI Building. So I wanted to highlight obviously I do 
believe that Virginia has the best site and the best proximity 
to the Bureau's employees.
    A study released last year concluded that FBI employees 
would save between 3 to 4 hours, on average, each month 
commuting to the Virginia site over the two Maryland sites. So 
obviously that is a greener footprint. Obviously for the 
congestion issues in our Washington metropolitan area that 
would also be an improvement.
    And the site is closer to a number of the other national 
security agencies, including the Marine base at Quantico, CIA 
[Central Intelligence Agency] which is in my district, the 
Pentagon, the National Counterterrorism Center, and the Office 
of the Director of National Intelligence.
    So I certainly hope that the GSA keeps this process running 
smoothly and keeps those important notes in mind, and I know my 
colleagues and I in Virginia, you have a lot of our information 
that we have provided over the months that predates me with my 
predecessor, Congressman Wolf also, and so I certainly would 
like to associate myself with all of that.
    I will be submitting some additional questions for the 
record on that front, but I did want to turn to another matter 
that had been highlighted for us and ask Commissioner Dong a 
couple of questions about a lease that was brought to my 
attention with the International Trade Commission.
    They apparently started working with you in 2014 toward a 
long-term solution that includes a reduction in footprint, even 
though they do not have to technically comply with the Freeze 
the Footprint administrative order.
    So to make a somewhat long, complicated story short, in 
2015 ITC's [International Trade Commission's] current landlord 
submitted an informal proposal to GSA for their current 
location and included a significant reduction in rent.
    Both GSA and OMB officially approved a succeeding lease 
prospectus in August of 2015 and would allow ITC to stay at the 
current location. I do believe that this is, you know, a good 
idea, and I know there have been deadlines that have come and 
gone here, and now there is sort of a different direction going 
here.
    So I know you are now proposing a replacement lease, and 
you know, given they are significantly reducing their costs and 
right now we are in some very sensitive trade issues going on 
back and forth that we are all familiar with, I wanted to just 
ask a few questions on that front in terms of kind of having 
this type of major disruption that we would have to have if 
they were moved.
    So why exactly did the GSA sort of backtrack on this 
original agreement?
    Mr. Dong. Whether we are talking about the ITC lease or 
whether we are talking about any other expiring lease, when we 
talk about our commitment to competition at GSA, we are serious 
about it, and we want to make sure that for any transaction 
where you have a lease that is expiring that we embrace 
competition in a meaningful way, and that is what we are trying 
to do with the ITC lease, and that is what we are trying to do 
with all of our expiring leases that we see.
    Mrs. Comstock. OK. But as you are looking at this now in a 
competitive sense, the fact that they have been able to get 
that reduction there and would not have to move, are all of 
those costs and all of that disruption going to be taken into 
account?
    Mr. Dong. Whether we are talking about the ITC lease or any 
other expiring lease, one of the things that we will consider 
is move and replication costs. But, again, we want to make sure 
that we go through the discipline of the process to have some 
healthy competition in the process to make sure that we are 
getting the best leasing rates for our tenant agencies and for 
the taxpayer.
    Mrs. Comstock. OK. Well, I do have some followup questions 
that will also be submitting on that, but I did want to 
highlight that because particularly given the sensitive trade 
negotiations going on right now, and their very demanding 
schedule and role, I hope that all of that would be considered 
and the entire cost, too, to make sure that that is all 
included.
    Thank you, Mr. Chairman.
    Mr. Barletta. The Chair recognizes Mr. Perry for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I guess I will start with Judge Smith here, just following 
up on Mr. Barletta, the chairman's question regarding the 
Harrisburg courthouse when you said ``the beginning.''
    Can I ask you what ``the beginning'' includes when you said 
we are going to look at the beginning of that? Certainly after 
the eight courthouses in front of it are addressed, we are 
going to be looking at, and those are your words, ``the 
beginning.''
    What does that mean?
    Judge Smith. Well, first of all, we are encouraging every 
court that is on our list, and that includes Harrisburg, to 
take into account not only the prospect of a new building, but 
also the prospect of an annex, something short of a complete 
new courthouse.
    So that is a factor that is going to have to be considered 
by the court family itself in the Middle District of 
Pennsylvania.
    But what I meant by ``the beginning'' is, and as was noted 
by Chairman Barletta in his introduction and his question to 
me, was an acknowledgment that the funding that has been 
provided has not been funding that contemplates a complete 
build of a courthouse.
    It is our responsibility, that is, the responsibility of 
the courts and the responsibility of the courts working with 
GSA, to see to it that the eight projects that have been 
contemplated be completed in such a fiscally responsible way 
that there is a sufficient amount of money remaining for 
Harrisburg to get a start on the process.
    Mr. Perry. So does that mean design? When you talk about an 
annex, does that mean acquisition of land or a study regarding 
the size?
    What does that mean in a tangible sense? I do not know if I 
am not getting it or what, but I do not know what that means in 
the sense that somebody can say there is something tangible 
here at the beginning. What does that mean?
    Judge Smith. We do not know yet what it means, 
Representative Perry, in the sense that we do not know exactly 
what Harrisburg will need, nor have they, as a court, indicated 
to us finally what will be suitable for them.
    As you well know, as the chairman knows, the discussion 
over the years has been for a complete new build of a 
courthouse. We have in more recent years, as fiscal realities 
have taken place as they rightfully should, that we should look 
at alternatives to new builds.
    But this is a project that has been on the list for many, 
many years.
    Mr. Perry. Right.
    Judge Smith. And the data that we have needs to be 
refreshed. We do not have that refreshing yet.
    Mr. Perry. OK. I just want to brief you back and you 
confirm that I got this right because I have got to go talk to 
these constituents, right? They are my bosses.
    So the beginning means that, as you said, a refreshing of 
exactly what Harrisburg thinks it needs and kind of a 
validation of what it needs.
    Judge Smith. That is the very beginning, sir, but we are 
certainly hopeful that we will be making even more progress 
than that depending upon how much money of the $948 million 
that has been appropriated remains after the spend plan for the 
other eight has been approved.
    Mr. Perry. Do you have a date? Is there a timeline? Is 
there a suspense date with getting that information from 
Harrisburg? Is there something associated with that?
    Judge Smith. Well, the spend plan that we are required to 
submit is due in mid-April. After that, there will be 
prospectuses provided by GSA, prepared by GSA and provided with 
respect to all projects.
    With respect to Harrisburg, we anticipate prospectus 
development to follow at some point after that mid-April date.
    Mr. Perry. All right. Thank you.
    Mr. Dong, I am going to turn to you regarding the FBI, I 
think more than Mr. Haley. I am dealing with this, as the 
chairman of the Subcommittee on Oversight and Management 
Efficiency of the Committee on Homeland Security, St. 
Elizabeths, the new site for the Department of Homeland 
Security. It was supposed to be done by 2015. It is over $1 
billion over budget.
    I am just wondering as I read the narrative here that the 
new FBI is somewhere between $2 billion and $3 billion. That is 
the narrative that I have here. I do not know where that came 
from, but, you know, that is a 30-percent difference, right? I 
would think we would be able to bracket it a little more 
closely than $2 billion to $3 billion.
    I do not see exactly what the cost is. I see that $75 
million has been allocated to GSA's Federal Buildings Fund. I 
see the $315 million in the FBI's budget for design, yet we do 
not have a site yet.
    Is there a timeline associated? Is that $315 million that 
still remains since we do not have a site? Is the $75 million 
in GSA's FBF [Federal Buildings Fund] for construction, 
management and oversight? Does that still remain?
    Because there has not been any construction, right? There 
might have been some design, but it is really hard to do any 
meaningful design without a site, right? And you are down to 
three, but you have not selected one.
    And then finally, we do not know right now the value of the 
Hoover Building, right? GSA has backed off their exchange 
program because I guess the value was not there, but what is 
the current projected value so that we can see how that fits 
into the $75 million, the $315 million, and the $1.4 billion 
requested?
    Can you make some sense of that for me?
    Mr. Dong. Sure. First off, let me say that we appreciate 
the funding that the Congress provided in fiscal year 2016 to 
support the full consolidation of the FBI Headquarters. We want 
to make sure that we are being fully transparent as we talk 
about project costs. We are committed to following up with 
committee staff after this hearing to provide additional 
details on the project costs.
    You asked about the value of the Hoover Building. 
Ultimately that is for the market to decide, and we will have a 
far better sense as the bidders submit their proposals at the 
end of June.
    Mr. Perry. So you have no appraisal? Do you have an 
appraisal?
    You might not want to divulge it, and I understand that, 
but do you have an appraisal?
    Mr. Dong. There have been appraisals conducted for that 
site.
    Mr. Perry. All right. Is that information available to 
Members of Congress?
    Mr. Dong. We can provide additional information to Members 
of Congress and the staff after this hearing in terms of 
project costs.
    Mr. Perry. All right. What about the $75 million and the 
$315 million that have already been allocated for 
preconstruction and design activities?
    You do not have a site. Is that money still sitting there 
or has it been spent or a portion of it spent? And if so, what 
on?
    Mr. Dong. We have not yet obligated the dollars that were 
provided in fiscal year 2016. Our expectation is that we will 
be able to make a contract award by the end of this calendar 
year where we would be able to obligate those funds.
    Mr. Perry. So all of those funds still remain as they were, 
$75 million and $315 million complete?
    Mr. Dong. We have not yet obligated the funding for fiscal 
year 2016.
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Mr. Barletta. The Chair now recognizes Mr. Mica for 5 
minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    It is good to be back with the old subcommittee and some of 
the leaders here.
    Mr. Dong, a couple of quick questions. First, thank you for 
your work on a number of projects that have languished and you 
have helped move some of them forward. I appreciate that very 
much.
    Just a quick real snapshot at the Trump project, the Old 
Post Office. Our first hearing of this subcommittee when I 
became chair was at the Old Post Office in the annex. It was 32 
degrees outside. We held it inside. It was empty at 38 degrees. 
You were not there for that, but we made some great progress.
    I hear it is on schedule and within budget. Can you tell us 
about the Old Post Office-Trump project?
    Mr. Dong. My understanding is the same as yours, is that 
that project is on track for completion later this year.
    Mr. Mica. OK. And we are losing about $6 million a year. I 
think the deal is close to one-quarter of a million dollars a 
month in revenue. You got a pretty good deal for revenue as 
opposed to the loss, do you not?
    Mr. Dong. Through this out-lease, we are now turning a 
money-losing project into a revenue-generating project.
    Mr. Mica. That sounds like a pretty good recipe for success 
for the future.
    Let's go now to Miami-Dade. We have a Federal courthouse in 
Miami. We did two hearings down there on that vacant 
courthouse. It is vacant now 6, 7 years, something like that, 
costing us $1 million or more a year vacant.
    We are very close. There is one sticking issue about the 
renovations. I believe the renovations should be subject to any 
laws that the State of Florida has. The State of Florida is 
taking it over, and we are leasing that facility to them.
    What do you think? Are there any improvements in the 
building?
    Mr. Dong. We are working through the remaining issues right 
now with Miami-Dade College.
    Mr. Mica. That is the only one I am told is pending.
    Mr. Dong. I believe that is correct. We see that as an 
issue. We do not see it as a deal breaker. We are committed to 
working in partnership with Miami-Dade College to resolve this 
and to complete the transaction.
    Mr. Mica. Well, I think we should look at letting the State 
when they take over these properties do what they want. I just 
transferred. I have got on the President's desk transferring an 
empty 120-bed nursing home to the State of Florida, and I think 
they will be able to make those changes there. We should be 
able to do it with other property at the most reasonable cost 
to the taxpayers and under the current requirements of the 
State.
    So hope you will look at that.
    Thank you.
    I will go to FTC. Thank you for your work on that. Any 
report? This is the Federal Trade Commission Building. They 
tried to consolidate them.
    I read your statement, a very good statement, about 
reducing the footprint. Everything you put in your statement is 
what we are trying to do for the National Gallery, reduce their 
footprint, get them into the FTC Building and move the FTC into 
the Department of Commerce.
    When do you think you will be able to come back with a 
report we talked about on that move?
    Mr. Dong. As you know, we have been having some good 
conversations that really focus on evaluating the different 
options for meeting the housing requirement for the FTC, but 
also looking at that current site and really asking the 
question of highest and best use.
    So we recognize that that conversation is still ongoing, 
and we look forward to following up with your office.
    Mr. Mica. I will meet with Ms. Norton and tell her the 
latest and the ranking member that they have an excellent 
location. They have a space available at the Department of 
Commerce. They are renovating that building. They will be 
adjacent to the White House. You cannot get much closer or 
better view for all the Commissioners, and we will save a lot 
of money.
    But Mr. Dong is doing great work on that, and I think it 
will be a solution everybody will be happy with.
    And then finally, the Cotton Annex. We held a hearing in 
the empty Cotton Annex. That has been part of the deal you 
tried to broker with the FBI Building and I think also the 
Hoover Building, the more you put into the equation, and I 
understand some of that has collapsed last week, the more 
difficult it is to do a deal to get that done.
    What is your latest take on how we can possibly separate 
those and get the deal done?
    Mr. Dong. We had originally proposed to exchange the Cotton 
Annex along with the regional office building for renovation 
work to complete the modernization of our headquarters at F 
Street. Unfortunately that deal did not materialize.
    But what we have decided to do with the Cotton Annex is to 
move forward with a disposal.
    Mr. Mica. Good.
    Mr. Dong. And by doing so we will actually be able to 
dispose of that property 2 years earlier than planned.
    Mr. Mica. OK. You win my praises. We have got to move these 
things. You went down a path. It did not work. I commend you on 
all of the above.
    He is doing a good job, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Barletta. Thank you.
    The Chair now recognizes Ms. Norton for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman, for this 
hearing and for this opportunity to clear up some issues that 
are pending.
    Mr. Dong, I have worked with the other side on language in 
H.R. 4487. That is a bill that will be marked up tomorrow to 
finally get the GSA to develop the very valuable property 
facing Independence Avenue, essentially Mall property. It would 
house the entire Department of Energy site with a smaller 
footprint.
    It would be consistent with the ongoing Southwest 
Ecodistrict Plan.
    Mr. Dong, given the delays that have been involved, the 
false starts here, can the agency commit to completing the 
program requirements for the Department of Energy by June?
    Mr. Dong. Absolutely. Our plan, right now we are working 
with the Department of Energy to develop their program of 
requirements for their headquarters for the future, and our 
expectation is that that will be complete by the summer.
    Ms. Norton. Now, you just discussed disposal of the Cotton 
Annex. First of all, I want to commend the agency for trying 
out some of the strategies that are commonly used in real 
estate, such as exchanges. That is what you tried out in order 
to get development elsewhere, disposal of the Cotton Annex and 
the regional office building nearby in exchange for 
construction services, for example, at 1800 F Street.
    Here we have a huge office building half done, and you are 
trying, and I commend you for trying, to get that completed.
    But I do not understand the strategy going forward. You 
just said that you are going to dispose of the Cotton Annex. 
That is in the regular process.
    What are you going to do about 1800 F Street and that half-
finished building which you were trying to get done?
    And what happened that you had to essentially throw up your 
hands after the process that was underway for the exchange in 
order to get 1800 F Street, the GSA Building, completed and not 
left here as a kind of ruin waiting for something to happen?
    What happened? Who underestimated what? Why were you not 
able to get the value out of the exchange? Did you not know 
that in advance?
    Is that really rocket science?
    Mr. Dong. What we observed with the Federal Triangle South 
project is that as you introduce more complexity and risk into 
the transaction, that gets factored in in terms of the 
valuation and how the market looks at the value of our assets.
    Ms. Norton. That is complexity that you did not foresee?
    Mr. Dong. I think part of it is that we saw that what we 
were trying to do here was to renovate an historic building, 
1800 F Street, that currently had tenants in it. We have come 
to recognize that that type of work has a lot of unknowns to 
the developers, and through this process, we are learning from 
that experience and applying it to how we approach exchanges as 
we go forward.
    Ms. Norton. Well, I certainly hope you do not cease to do 
exchanges, but what is going to happen to 1800 F Street?
    You talk about disposal of Cotton Annex, and of course, 
this committee has been at pains to ask for disposal especially 
in this most valuable of sites. But that just leaves you with 
the ordinary process and 1800 F Street with no strategy for 
moving forward?
    Mr. Dong. We recognize that we have got to complete the 
modernization of 1800 F Street. The building has only been half 
renovated, but as we look at that question, we are also looking 
at our larger portfolio of federally owned buildings across the 
Nation. So we have got to make some tough choices in terms of 
we have got significant need across the portfolio as the 
portfolio ages.
    And we recognize that there are some tradeoffs in this 
tight budget environment, which is why we have asked for full 
access to the Federal Buildings Fund because we feel that it is 
important to take the dollars that we collect from our tenant 
agencies and to reinvest them back into our Federal building.
    Ms. Norton. So if you could use those funds from the 
Federal Buildings Fund, which I thought were for purposes such 
as that, you could get that building completed?
    Mr. Dong. I think an important element here is to make sure 
that every dollar that we collect in rent we are able to 
reinvest back into the Federal portfolio. We appreciate funding 
that we got in fiscal year 2016. We think that goes a long way 
to helping address the backlog of repairs and modernization 
needs that we see in the portfolio.
    But if you look at earlier years, previous years, that was 
not always the case.
    Ms. Norton. Mr. Chairman, I have more questions, but if I 
have reached the end of my time, is there a second round?
    Mr. Barletta. Yes, we are going to do a second round.
    The Chair recognizes Mr. Meadows for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Dong, I am going to follow up on the gentlewoman's 
questioning because you equivocated. You are not answering her 
question, and that is: specifically, are you going to reinvest 
the money in that particular project and get it done? Yes or 
no?
    Because you talk about what we have not done in the past. I 
mean, she wants to know if it is done, and let me tell you the 
reason why it is like nails on a chalkboard when I hear you.
    This is about our fourth hearing as we start to look at 
excess inventory, decisions made by GSA, and as a previous real 
estate guy, it really just bothers me to no end to see the way 
that we are managing our Federal portfolio.
    And so we have given a free pass a number of times, whether 
it is here or in the Committee on Oversight and Government 
Reform, and I guess what I am asking you today is: can we start 
to look at a real plan from GSA?
    And I know you have got new leadership, and I am looking 
forward to working with the new leadership.
    Can we look at a real plan where you report back to this 
committee on a plan to look at how we manage our portfolio, 
whether it is excess, whether it is courthouses, or finishing 
this particular project?
    Mr. Dong. Absolutely. I talked earlier about our commitment 
to moving far more aggressively to identify our underutilized 
assets and to move them off the books, whether we----
    Mr. Meadows. So when will we see a plan? Because far more 
aggressive, the last aggressive plan that we had actually took 
over 40 years to get rid of the excess inventory that we heard 
from GSA.
    So more aggressive could mean 30 years, and I guess the 
chairman and the ranking member, I think, want to see something 
that is more aggressive than that.
    So at what point will you provide this committee a plan on 
how we are going to look at properly managing the Federal 
portfolio?
    Mr. Dong. As I mentioned in my opening testimony, for the 
first time GSA has developed a multiyear pipeline of potential 
properties that we are going to either dispose of or exchange 
or seek out-leases for. We are happy to share that with the 
committee as a followup to this hearing.
    Mr. Meadows. So we are looking at that. So let me ask this 
specific question then. With this for the first time ever, this 
pipeline, how many years will it take to get rid of the excess 
inventory that is on your list?
    I know you work with OMB and others as it relates to that, 
but how many years are we looking at?
    Mr. Dong. I think it comes back to having a stronger 
project management discipline as we look at those assets one by 
one to make sure that we have got a plan and that we have got a 
schedule for each one.
    Mr. Meadows. So what would you consider a reasonable 
estimate to get rid of 90--let us back it out--75 percent of 
the backlog in terms of excess inventory?
    What is a reasonable timeframe to get rid of that?
    Mr. Dong. What we will show as we follow up and provide 
additional information to members of this committee is for 
those assets we will have a sense of timing for each one.
    Mr. Meadows. That is a great answer to a question I did not 
ask. How many years would be reasonable? Ten years, fifteen 
years?
    I mean, obviously it is in your purview. You have looked at 
this. What is reasonable at this point?
    Mr. Dong. I do not have that answer today, but again, in 
the information that we will share, we will be much more 
transparent in terms of the time it will take asset by asset.
    Mr. Meadows. All right. So let me ask you. Are you willing 
to commit here today that within the next 30 days that you get 
this committee a timeframe of which you are going to liquidate 
those assets? A timeframe.
    Mr. Dong. Absolutely.
    Mr. Meadows. All right. Thank you.
    Let me go on a little bit further. The U.S. Court of 
Federal Claims obviously put forth a ruling as it relates to 
the TSA lease. And where are you in the process of procuring 
another lease?
    Mr. Dong. With regard to that transaction, we chose not to 
appeal the decision that was made on the protest. Instead what 
we did was we recognized the problem. We addressed the problem, 
and we are continuing down the path of a competitive process 
for that follow-on, for that expiring lease.
    Mr. Meadows. Well, the ruling was very clear in terms of 
the role of GSA, and it was very explicit in terms of what you 
can and cannot do, and it said the executive branch does not 
have the ability.
    I think they were very exact in their ruling with regards 
to being able to spend public funds without authorization.
    Would you agree with that?
    Mr. Dong. I think the larger point is well taken in terms 
of we are committed to being fully transparent in the process. 
We are committed to abiding by the terms that we spell out in 
the prospectus, as well as the terms that we spell out in our 
requests for proposals.
    Mr. Meadows. All right. So are you willing to commit then? 
So let me follow up with that. Are you willing to commit to 
this committee to give us a full briefing of the interpretation 
of that ruling?
    Mr. Dong. Yes, we can follow up on that.
    Mr. Meadows. All right, and you will further go ahead and 
allow those whether the new prospectus would be submitted to 
the chairman of this committee as well?
    Mr. Dong. I am sorry?
    Mr. Meadows. In terms of review of projects, future 
projects, are you willing to submit those? Under that ruling it 
would actually have to come to this committee so that they 
could approve those particular projects.
    Mr. Dong. I think it comes back to what we were talking 
about before in terms of as we submit prospectuses, we lay out 
the terms of each transaction, and we are committed to abiding 
by those terms and being transparent with the committee.
    Mr. Meadows. And you are willing to deliver those to this 
committee?
    Mr. Dong. Yes.
    Mr. Meadows. All right. I yield back. Thank you.
    Mr. Barletta. Thank you, Mr. Meadows.
    I now recognize each Member for 5 minutes for any 
additional questions they may have, and I will begin.
    Mr. Dong, last week GSA did announce that it is canceling a 
planned exchange involving the vacant Cotton Annex for 
construction services, as you quoted again today. In the 
article you said that as you introduced more complexity into 
the equation, you are introducing more risk.
    The FBI project is significantly more complex than swapping 
a vacant building to renovate the GSA Headquarters.
    My question would be then: why commingle the Hoover 
Building in the transaction rather than sell the Hoover 
Building outright to the highest bidder to maximize the return?
    Mr. Dong. We see some distinct differences between what we 
are proposing to do for the FBI project versus what we saw with 
Federal Triangle South, and with the FBI project, there is far 
less complexity and risk than what we saw with Federal Triangle 
South in a couple of important ways.
    One, as I mentioned before, with the Federal Triangle South 
transaction, we were proposing major renovation of an historic 
building that had tenants in it. With the FBI we are looking at 
new construction.
    Secondly, we think that there is far more development 
potential with the Hoover site than with the sites that we are 
proposing with Federal Triangle South.
    And the third element comes back to our funding strategy. 
With the FBI the exchange is just one component of a larger 
funding strategy. We appreciate the funding that Congress has 
appropriated for the FBI project last year and the amount that 
we have requested in the fiscal year 2017 budget will fully 
address the needs for that consolidation.
    Mr. Barletta. In the prospectus submitted to the committee 
for the FBI project, there is no total estimated project cost, 
effectively giving GSA a blank check. Section 3307 of title 40 
clearly requires prospectuses include an estimate of the 
maximum cost to the Government of the facility.
    How does the FBI prospectus comply with the law?
    Mr. Dong. We recognize the importance of proper oversight, 
and we recognize the importance of being fully transparent in 
this process. We are committed to following up with the staff 
of the committee to provide additional details on total project 
costs.
    Mr. Barletta. Thank you.
    With that I will recognize Ranking Member Carson for any 
additional questions.
    Mr. Carson. Thank you, Chairman.
    Commissioner Dong, GSA was appropriated over $2 billion in 
fiscal year 2016 for the construction and major repair and for 
alteration projects. Sir, how does GSA approach encouraging use 
of small businesses in awards for construction and alteration 
projects?
    And did the Public Buildings Service meet all of its small 
business goals in fiscal year 2015?
    Mr. Dong. Absolutely. We have a strong organizational 
commitment to our small business goals, and if you look at our 
track record in recent years, we have been hitting it out of 
the park.
    Last year, we exceeded by a significant margin our targets 
in all categories.
    Mr. Carson. What can GSA do to exceed the goals for 2016 
moving forward?
    Mr. Dong. I think it really kind of comes back to looking 
for every opportunity within our award pipeline to ask that 
question: is there an opportunity to support small business in 
this process?
    And we have got a very disciplined process within our 
organization to do exactly that.
    Mr. Carson. Thank you.
    I yield back, Mr. Chairman. Thank you, sir.
    Mr. Barletta. The Chair recognizes Ms. Norton for 5 
minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Dong, I have written you a letter. It is a fairly 
complicated issue, but it is an important issue.
    Working with the other side, I was in the minority. If you 
want to speak about disposal of property, perhaps the largest 
property was the Southeast Federal Center located right on the 
river, and we were able to work together on a bill that created 
a master developer. The Senate passed this bill as soon as the 
House had gotten it done. This subcommittee actually went to 
the site to see the site involved and to understand its value.
    All matter of development is ongoing there. It is probably 
20 years of really wonderful development.
    The question has arisen concerning office space because 
both homes and, of course, offices, Federal offices, may be 
developed there. We are often in need of Federal office space.
    With homes, the ground comes with the home, but when it 
comes to office space, we continue to own the ground, and the 
master developer has to pay for ground rent.
    Now, the master developer, it seems to me, has a legitimate 
question and wants to know whether or not being obligated to 
pay ground rent, how may it compete if it wants to compete in a 
GSA competition for office space? The master developer does 
office space and other developers do office space.
    They argue that at the very least, the reversionary 
interest in the property would be accelerated if they were 
allowed to compete. I want to make sure that the competitive 
process is truly competitive, and that this question is cleared 
up because it does not seem to me to be fair to leave it wide 
open. It should have been cleared up by now.
    And I have asked for a response to a letter because I 
thought it was sufficiently complicated that it should be laid 
out in writing within 30 days, but since you are here and it 
was early February when I sent my letter, I would like to hear 
your take on that issue.
    Mr. Dong. We share your commitment to the competitive 
process. We also share your commitment to the redevelopment of 
that neighborhood, and I am glad that you brought this issue to 
my attention, and quite frankly, what we are doing right now is 
we are taking an honest look at that question.
    I look forward to following up with you in terms of how we 
have evaluated that and our process going forward.
    Ms. Norton. I have a question on the Secret Service 
Building. You see the interest in this committee in disposing 
of properties that everybody agrees should be disposed of, and 
of course some are more complicated than others.
    Webster School comes up every time we meet. It is one of 
the most underutilized properties. Of course, it also happens 
to be in the middle of town, which makes it very valuable if 
the Government were to dispose of it.
    GSA released an RFI [request for information] on the site 
in October. Of course, the Secret Service is a neighbor, and I 
commend you on getting an RFI so we could try to figure this 
out.
    Can you now provide us an update on where we stand on this 
long outstanding, underutilized property which would bring the 
Government so much in return were we able to dispose of it?
    Mr. Dong. Absolutely. I think everybody recognizes that the 
Webster School has been vacant for decades, and if you actually 
go into that building you can see the impact of years of 
neglect, and what we recognized was that, OK, time is up. It is 
now time for action.
    And what we have done through this RFI process is to see 
that there is significant development potential here, and we 
recognize that there is a way to do this that meets the 
expectations of the Secret Service.
    Ms. Norton. Well, that was in October. When can we expect--
--
    Mr. Dong. We are moving forward with disposal of this 
building.
    Ms. Norton. But you have no idea what the timeframe is?
    Mr. Dong. I have asked my team and the National Capital 
region to just move this now.
    Ms. Norton. Please give this some priority.
    Mr. Dong. Absolutely.
    Ms. Norton. That is a lot of money on the table.
    Finally, could I ask a question about an amendment? 
Actually I filed it as a bill. I am ultimately going to ask the 
chairman who has worked, it seems to me, so well with us on 
other amendments if he would consider this if there is a 
manager's amendment. I will call it my motherhood amendment.
    I learned that there were not lactation spaces for Federal 
employees after somebody wrote me to indicate that in the 
Smithsonian there were lactation spaces in only one building.
    I immediately contacted the Smithsonian. They acted 
immediately. Then I thought about how this city is a tourist 
mecca, and about how the Federal Government has given priority 
through several administrations to encourage breast feeding. We 
are still not getting enough of it, but it is one of the best 
ways to protect an infant.
    It is seldom that somebody would be visiting a Federal 
office site or, for that matter, a Federal employee would need 
lactation spaces, but this amendment that I will offer tomorrow 
if it is not included in the manager's amendment would say that 
the Federal agencies should set aside existing space, no new 
space, that could be available in the event that someone 
visiting the building needed lactation space or a Federal 
employee needs it.
    We have a very low birth rate in this country. That is why 
I do not see why we would need a whole room that nobody could 
use, but I wonder if you can identify whether or not you see 
any cost implications if all we are doing is saying use this 
room, but continue to use it for other purposes.
    If a mother happened to visit at this time, then of course 
this is a room that you will be prepared to leave for a half 
hour to allow lactation to take place.
    Do you see any cost implications to setting aside existing 
space in office buildings that we own or rent?
    Mr. Dong. We recognize the importance of this requirement, 
and we are committed to finding a solution to make it work in 
our Federal buildings.
    Ms. Norton. And you have not as yet found any cost 
implication if I am talking about current space?
    Mr. Dong. If it is current space, we should be able to find 
a way to make it work.
    Ms. Norton. Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Barletta. Thank you. Thank you.
    The FBI project is obviously a very important project, and 
it is also important that we get it right. You know, large 
projects have a history of running over costs and sometimes run 
out of money halfway through, and we need to be careful that a 
project as important and as big as this does not follow past 
history.
    You know, as we said at the onset of the hearing, it is 
important that this project meets the needs of the FBI, and it 
also a good deal for the taxpayers.
    I would like to thank all of you for your testimony here 
today. Your comments have been very helpful in today's 
discussion.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any addition comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today.
    If no other Members have anything to add, this subcommittee 
stands adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
